HHS/OIG-Audit--"Review of Medicare Managed Care Capitation Payments for Deceased Beneficiaries, (A-07-99-01298)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Managed Care Capitation Payments for Deceased Beneficiaries,"
(A-07-99-01298)
May 1, 2001
Complete Text of Report is available in PDF format
(749 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Health Care Financing Administration
(HCFA) paid $4.1 million to managed care organizations (MCOs) for deceased beneficiaries
in 4 States (Arizona, California, Colorado, and Florida). These 4 States represent
about 43 percent of all Medicare risk-based enrollees. The HCFA has recouped
about $833,000, but over $3.2 million remains outstanding because HCFA was not
aware of all of the deaths and did not take action to collect some of the improper
overpayments. Further, HCFA continues to pay at least $700,000 per year to MCOs
for the deceased beneficiaries identified by our review. We recommended that
HCFA identify and recoup Medicare payments in all States made on behalf of deceased
beneficiaries, including the $3.2 million identified in this report. We also
recommended that HCFA continue to strengthen procedures to prevent and detect
payments to MCOs for deceased beneficiaries. The HCFA concurred with our recommendations.